Appendix A: Ninth Circuit’s Opinion

9

Page 2 of 2
830 Fed. Appx. 894, *894; 2020 U.S. App. LEXIS 38374, **38374

Reporter
830 Fed. Appx. 894 *; 2020 U.S. App. LEXIS 38374 **; 2020 WL 7238456

have jurisdiction under 28 U.S.C. § 1291. We affirm.

UNITED STATES OF AMERICA, Plaintiff-Appellee, v.
LANCE LAMONT LAVERT, Defendant-Appellant.
Notice: PLEASE REFER TO FEDERAL RULES OF
APPELLATE PROCEDURE RULE 32.1 GOVERNING THE
CITATION TO UNPUBLISHED OPINIONS.
Subsequent History: Rehearing denied by, Rehearing denied
by, En banc United States v. Lavert, 2021 U.S. App. LEXIS
10293 (9th Cir. Cal., Apr. 9, 2021)
Prior History: [**1] Appeal from the United States District
Court for the Southern District of California. D.C. No. 3:18cr-03485-AGS-1. Larry A. Burns, District Judge, Presiding.
Disposition: AFFIRMED.

Core Terms
enhancement, serious bodily injury, violent crime,
brandishing, firearm, district court, Hobbs Act, laceration,
robbery, abused, gun
Counsel: For UNITED STATES OF AMERICA, Plaintiff Appellee: Matthew Craig Brehm, Assistant U.S. Attorney,
Brandon Kimura, Special Assistant U.S. Attorney, Daniel
Earl Zipp, Assistant U.S. Attorney, Office of the US Attorney,
San Diego, CA.
For LANCE LAMONT LAVERT, Defendant - Appellant:
David James Zugman, Attorney, Burcham & Zugman, San
Diego, CA.
Judges: Before: WALLACE, CLIFTON, and BRESS, Circuit
Judges.

Opinion

Lavert contends that the court should vacate his conviction
for brandishing a firearm "during and in relation to any crime
of violence" because Hobbs Act robbery does not
categorically qualify as a crime of violence under §
924(c)(3)(A). We review de novo and conclude that this
argument is foreclosed by circuit precedent. [**2] See United
States v. Dominguez, 954 F.3d 1251, 1256, 1260-61 (9th Cir.
2020).
Lavert also asserts that the district court abused its discretion
when it imposed [*895] an enhancement under U.S.S.G. §
2B3.1(b)(3)(B) for causing serious bodily injury to one of his
victims. While Lavert concedes that the victim was injured,
he argues that the injuries were not sufficiently serious to
warrant the four-level enhancement. We disagree. The record
shows that Lavert struck the victim on the head with a gun,
causing a laceration requiring nine staples, continuing
treatment for trauma and the head injury, and an extended
medical leave from work. On this record, the district court did
not abuse its discretion in imposing the enhancement. See
U.S.S.G. § 1B1.1 cmt. n.1(M) ("serious bodily injury" is
"injury involving extreme physical pain or the protracted
impairment of a function of a bodily member, organ, or
mental faculty; or requiring medical intervention such as
surgery, hospitalization, or physical rehabilitation"); United
States v. Gasca-Ruiz, 852 F.3d 1167, 1170, 1175 (9th Cir.
2017) (en banc) (stating standard of review and explaining
that a court abuses its discretion only if the decision to impose
the enhancement is "illogical" or "implausible" based on the
facts in the record); United States v. Corbin, 972 F.2d 271,
272-73 (9th Cir. 1992) (affirming application of "serious
bodily injury" enhancement when the victim was hit "on the
head with a [**3] metal object resembling a gun, causing a
laceration which required a two-layer closure using more than
25 sutures").
AFFIRMED.

MEMORANDUM*
Lance Lamont Lavert was convicted by jury of Hobbs Act
robbery under 18 U.S.C. § 1951(a), brandishing a firearm
during a crime of violence under 18 U.S.C. § 924(c), and
being a felon in possession of a firearm under 18 U.S.C. §
922(g)(1). He appeals his brandishing conviction, as well as
the 189-month sentence he received for the three offenses. We

End of Document

* This

disposition is not appropriate for publication and is not
precedent except as provided by Ninth Circuit Rule 36-3.

10

David Zugman

